No. 19-1231

In the Supreme Court of the United States
FEDERAL COMMUNICATIONS COMMISSION
AND UNITED STATES OF AMERICA, PETITIONERS
v.
PROMETHEUS RADIO PROJECT, ET AL.
ON WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT

BRIEF FOR THE PETITIONERS

THOMAS M. JOHNSON, JR.
General Counsel
ASHLEY S. BOIZELLE
Deputy General Counsel
JACOB M. LEWIS
Associate General Counsel
JAMES M. CARR
WILLIAM SCHER
Attorneys
Federal Communications
Commission
Washington, D.C. 20554

JEFFREY B. WALL
Acting Solicitor General
Counsel of Record
MAKAN DELRAHIM
Assistant Attorney General
MALCOLM L. STEWART
Deputy Solicitor General
MICHAEL F. MURRAY
Deputy Assistant Attorney
General
AUSTIN L. RAYNOR
Assistant to the Solicitor
General
Department of Justice
Washington, D.C. 20530-0001
SupremeCtBriefs@usdoj.gov
(202) 514-2217

QUESTION PRESENTED

In Section 202(h) of the Telecommunications Act of
1996, as amended, 47 U.S.C. 303 note, Congress directed the Federal Communications Commission (FCC
or Commission) to review its rules concerning common
ownership of media outlets every four years to “determine whether any of such rules are necessary in the
public interest as the result of competition,” and to “repeal or modify any regulation [the FCC] determines to
be no longer in the public interest.” Since 2003, the
Commission has repeatedly determined that certain
ownership rules are no longer necessary in light of dramatically changed market conditions and accordingly
has sought to relax those rules, but the same divided
panel of the United States Court of Appeals for the
Third Circuit has vacated each of those efforts in substantial part. In the decision below, the panel majority
vacated the FCC’s revised ownership rules and other
regulatory changes solely on the ground that the agency
had not adequately analyzed their potential effect on
minority and female ownership of broadcast stations,
without contesting the Commission’s core findings on
competition. The question presented is as follows:
Whether the court of appeals erred in vacating as arbitrary and capricious the FCC orders under review,
which, among other things, relaxed the agency’s ownership restrictions to accommodate changed market conditions.

(I)

PARTIES TO THE PROCEEDING

Petitioners were respondents in the court of appeals.
They are the Federal Communications Commission and
the United States.
Respondents were petitioners and intervenors in the
court of appeals. They are: Benton Institute for Broadband and Society, Bonneville International Corporation,
Common Cause, Connoisseur Media LLC, Free Press,
Fox Corporation, Independent Television Group, Media
Alliance, Media Council Hawaii, Movement Alliance
Project (f/k/a Media Mobilizing Project), Multicultural
Media, Telecom and Internet Council, National
Association of Black-Owned Broadcasters, National
Association of Broadcast Employees and TechniciansCommunications Workers of America, National Association of Broadcasters, National Hispanic Media Coalition, National Organization for Women Foundation,
News Corporation, News Media Alliance, Nexstar
Broadcasting, Inc., Office of Communication Inc. of the
United Church of Christ, Prometheus Radio Project,
Scranton Times L.P., and Sinclair Broadcast Group
Inc.*

The petition for a writ of certiorari did not list National Hispanic
Media Coalition (NHMC) as a party to the proceeding because, due
to a docketing error, it did not appear on the dockets below. That
error has since been corrected. The brief in opposition did list
NHMC as a party. In contrast, although the petition listed Cox Media Group LLC as a party, that entity has since filed a letter declining to participate in further proceedings before this Court.
*

(II)

TABLE OF CONTENTS

Page
Opinions below .............................................................................. 1
Jurisdiction .................................................................................... 1
Statutory provisions involved ...................................................... 2
Statement ...................................................................................... 2
A. Statutory background ............................................... 3
B. 2002 biennial review .................................................. 5
C. 2006 quadrennial review ........................................... 7
D. 2010 and 2014 quadrennial reviews ......................... 9
Summary of argument ............................................................... 17
Argument:
I. The FCC has broad statutory authority to regulate
media ownership in the public interest ....................... 21
A. The APA requires judicial deference to
reasoned agency judgments ................................... 21
B. Judicial deference is especially warranted
when the FCC regulates in the public interest
under Section 202(h) ............................................... 23
II. In fashioning the orders at issue in this case, the
Commission made reasonable policy judgments
based on the available facts .......................................... 27
A. The Reconsideration Order.................................... 28
B. The 2016 and Incubator Orders ............................. 32
III. The court of appeals’ contrary holding reflects
serious analytic flaws..................................................... 32
A. The court of appeals disregarded the statutory
text ............................................................................ 33
B. The court of appeals substituted its judgment
for that of the agency .............................................. 36
C. The decision below undermines the proper
functioning of Section 202(h) reviews ................... 43
D. The court of appeals’ remedy was overbroad....... 47
Conclusion ................................................................................... 49
Appendix — Statutory provisions ........................................... 1a

(III)

IV
TABLE OF AUTHORITIES

Cases:

Page

American Airlines, Inc. v. Civil Aeronautics Bd.,
359 F.2d 624 (D.C. Cir.), cert. denied,
385 U.S. 843 (1966).............................................................. 46
Baltimore Gas & Elec. Co. v. Natural Res. Def.
Council, Inc., 462 U.S. 87 (1983) ....................................... 41
Burlington Truck Lines, Inc. v. United States,
371 U.S. 156 (1962)........................................................ 21, 27
Capital Network Sys., Inc. v. FCC, 3 F.3d 1526
(D.C. Cir. 1993) ................................................................... 30
Department of Commerce v. New York,
139 S. Ct. 2551 (2019) ......................................................... 23
FCC v. Fox Television Stations, Inc.,
556 U.S. 502 (2009)........................................................ 22, 35
FCC v. National Citizens Comm. for Broad.,
436 U.S. 775 (1978)................................... 3, 16, 17, 24, 36, 44
FCC v. RCA Commc’ns, Inc., 346 U.S. 86 (1953) ......... 24, 36
FCC v. WNCN Listeners Guild, 450 U.S. 582
(1981) .............................................................16, 19, 24, 25, 34
FERC v. Electric Power Supply Ass’n,
136 S. Ct. 760 (2016) ........................................................... 21
FPC v. Hope Nat. Gas Co., 320 U.S. 591 (1944) ................. 27
FPC v. Transcontinental Gas Pipe Line Corp.,
365 U.S. 1 (1961) ................................................................. 44
Little Sisters of the Poor Saints Peter & Paul Home
v. Pennsylvania, 140 S. Ct. 2367 (2020) ........................... 35
Massachusetts v. EPA, 549 U.S. 497 (2007) ....................... 30
Motor Vehicle Mfrs. Ass’n of the U.S., Inc. v. State
Farm Mut. Auto. Ins. Co., 463 U.S. 29
(1983) .............................................................19, 21, 22, 27, 36
National Broad. Co. v. United States,
319 U.S. 190 (1943).........................................3, 23, 24, 27, 46

V
Cases—Continued:

Page

Perez v. Mortgage Bankers Ass’n, 575 U.S. 92
(2015) .................................................................................... 35
Prometheus Radio Project v. FCC, 373 F.3d 372
(3d Cir. 2004), as amended (June 3, 2016),
cert. denied, 545 U.S. 1123 (2005) ............................ passim
Prometheus Radio Project v. FCC, 652 F.3d 431
(3d Cir. 2011), cert. denied, 567 U.S. 951 (2012) ...... 8, 9, 45
Prometheus Radio Project v. FCC, 824 F.3d 33
(3d Cir. 2016) ........................................................... 11, 25, 45
Sierra Club v. Costle, 657 F.2d 298
(D.C. Cir. 1981) ................................................................... 41
Stilwell v. Office of Thrift Supervision,
569 F.3d 514 (D.C. Cir. 2009) ................................. 15, 22, 36
Telocator Network of Am. v. FCC, 691 F.2d 525
(D.C. Cir. 1992) ..................................................................... 4
United States v. Storer Broad. Co., 351 U.S. 192
(1956) ...................................................................................... 3
Vermont Yankee Nuclear Power Corp. v. Natural
Res. Def. Council, Inc., 435 U.S. 519 (1978) ............... 19, 35
Statutes:
Administrative Procedure Act,
5 U.S.C. 701 et seq............................................................... 21
5 U.S.C. 706(2)(A) ...................................................... 21, 1a
Departments of Commerce, Justice, and State, the
Judiciary, and Related Agencies Appropriations
Act, 2004, Pub. L. No. 108-199, Div. B, Tit. VI,
§ 629(3), 118 Stat. 100 ........................................................... 4
Telecommunications Act of 1996,
Pub. L. No. 104-104, 110 Stat. 56 ........................................ 4
47 U.S.C. 303 note (§ 202(h)) ............................passim, 7a
47 U.S.C. 161 ...................................................................... 2, 2a
47 U.S.C. 303 .................................................................... 23, 3a

VI
Statutes—Continued:

Page

47 U.S.C. 303(f ) .................................................................. 3, 3a
47 U.S.C. 309(a) ........................................................... 3, 23, 8a
Miscellaneous:
Amendment of Sections 73.34, 73.240, & 73.636 of
the Commission’s Rules Relating to Multiple
Ownership of Standard, FM, & Television Broad.
Stations, In re, 50 FCC 2d 1046, amended on
reconsideration, 53 FCC 2d 589 (1975)......................... 5, 30
Fourth Report on Ownership of Broad. Stations,
35 FCC Rcd 1217 (2020) ..................................................... 31
Promoting Diversification of Ownership in the
Broad. Servs., In re:
23 FCC Rcd 5922 (2008) ................................................... 8
24 FCC Rcd 5896 (2009) ................................................. 31
S. Conf. Rep. No. 230, 104th Cong., 2d Sess. (1996) ............ 4
The 2002 Biennial Regulatory Review, In re,
18 FCC Rcd 4726 (2003) ........................................... 5, 25, 26
2002 Biennial Regulatory Review, In re,
18 FCC Rcd 13,620 (2003) .......................................... 5, 6, 33
2006 Quadrennial Regulatory Review, In re:
21 FCC Rcd 8834 (2006) ................................................... 7
23 FCC Rcd 2010 (2008) ................................................... 8
2010 Quadrennial Regulatory Review, In re:
25 FCC Rcd 6086 (2010) ................................................. 10
26 FCC Rcd 17,489 (2011) .......................................... 9, 10
2014 Quadrennial Regulatory Review, In re,
29 FCC Rcd 4371 (2014) ............................................ passim

In the Supreme Court of the United States
No. 19-1231
FEDERAL COMMUNICATIONS COMMISSION
AND UNITED STATES OF AMERICA, PETITIONERS
v.
PROMETHEUS RADIO PROJECT, ET AL.
ON WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT

BRIEF FOR THE PETITIONERS

OPINIONS BELOW

The opinion of the court of appeals (Pet. App. 1a-56a)
is reported at 939 F.3d 567. The orders of the Federal
Communications Commission are reported at 31 FCC
Rcd 9864 (J.A. 101-576), 32 FCC Rcd 9802 (NAB Pet.
App. 64a-310a), and 33 FCC Rcd 7911 (J.A. 577-704).1
JURISDICTION

The judgment of the court of appeals was entered on
September 23, 2019 (Pet. App. 280a-282a). The court of
appeals entered an amended judgment on September
27, 2019 (Pet. App. 283a-285a). Petitions for rehearing
were denied on November 20, 2019 (Pet. App. 277a279a). On February 12, 2020, Justice Alito extended the
time within which to file a petition for a writ of certiorari
NAB Pet. App. refers to the petition appendix in consolidated
case No. 19-1241.
1

(1)

2
to and including March 19, 2020. On March 11, 2020,
Justice Alito further extended the time to and including
April 18, 2020, and the petition was filed on April 17,
2020. The petition for a writ of certiorari was granted
on October 2, 2020. The jurisdiction of this Court rests
on 28 U.S.C. 1254(1).
STATUTORY PROVISIONS INVOLVED

Section 202(h) of the Telecommunications Act of
1996, as amended, 47 U.S.C. 303 note, provides:
The [Federal Communications] Commission shall review its rules adopted pursuant to this section and all
of its ownership rules quadrennially as part of its
regulatory reform review under section 11 of the
Communications Act of 1934 [47 U.S.C. 161] and
shall determine whether any of such rules are necessary in the public interest as the result of competition. The Commission shall repeal or modify any
regulation it determines to be no longer in the public
interest.
Other relevant statutory provisions are reproduced in
the appendix to this brief. App., infra, 1a-8a.
STATEMENT

Congress has vested the Federal Communications
Commission (FCC or Commission) with broad authority
to regulate broadcast markets in the public interest.
Pursuant to that authority, the FCC has long acted to
promote competition and viewpoint diversity by restricting the ability of broadcasters to own multiple outlets in a single market. In Section 202(h) of the Telecommunications Act of 1996, as amended, 47 U.S.C. 303
note, Congress has directed the FCC to review its ownership rules every four years to “determine whether
any of such rules are necessary in the public interest as

3
the result of competition,” and to “repeal or modify any
regulation it determines to be no longer in the public
interest.” Ibid.
This case concerns the FCC’s repeated efforts over
a period of 17 years—thwarted by a series of decisions
by the same divided panel of the United States Court of
Appeals for the Third Circuit—to loosen ownership restrictions that the agency has determined are no longer
necessary in light of dramatic changes to the media
landscape. In the decision below, the panel majority did
not question the agency’s findings that the restrictions’
original competition and viewpoint-diversity rationales
no longer justified their retention. It nevertheless vacated the revised rules solely on the ground that the
agency had not adequately analyzed the rules’ likely effect on minority and female ownership of broadcast stations.
A. Statutory Background

For more than 85 years, the Commission has possessed broad statutory authority to regulate broadcasters in the public interest, both by issuing individual licenses and by promulgating rules. See 47 U.S.C. 303(f );
47 U.S.C. 309(a). Before the Internet existed, when the
media marketplace was dominated by a small number
of print and broadcast sources of information, the FCC
exercised that authority by limiting common ownership
of multiple media outlets. For example, the Commission limited the number of broadcast stations a single
entity could own, see National Broad. Co. v. United
States, 319 U.S. 190, 208 (1943); United States v. Storer
Broad. Co., 351 U.S. 192, 193 (1956), and banned common ownership of a daily newspaper and broadcast station located in the same community, see FCC v. National Citizens Comm. for Broad., 436 U.S. 775, 779

4
(1978) (NCCB). These restrictions were designed to
prevent undue economic concentration and promote
viewpoint diversity. See Prometheus Radio Project v.
FCC, 373 F.3d 372, 382-386 (3d Cir. 2004), as amended
(June 3, 2016) (Prometheus I), cert. denied, 545 U.S.
1123 (2005). The FCC historically reviewed its regulatory approach as needed to ensure that it continued to
promote the public interest. See, e.g., Telocator Network of Am. v. FCC, 691 F.2d 525, 550 n.191 (D.C. Cir.
1992).
Against this backdrop, the Telecommunications Act
of 1996 (1996 Act), Pub. L. No. 104-104, 110 Stat. 56, established “a pro-competitive, de-regulatory national policy framework” that Congress viewed as better suited
to the rapidly evolving communications market. S. Conf.
Rep. No. 230, 104th Cong., 2d Sess. 1 (1996). Consistent
with that framework, Section 202(h) of the 1996 Act regularized the FCC’s traditional review processes. As
amended, Section 202(h) directs the FCC to reevaluate
its ownership rules every four years to determine
whether they remain “necessary in the public interest
as the result of competition.” 47 U.S.C. 303 note. 2 If the
Commission determines that any of the ownership rules
are “no longer in the public interest,” it “shall repeal or
modify” them. Ibid. “The text and legislative history of
the 1996 Act indicate that Congress intended periodic
reviews to operate as an ‘ongoing mechanism to ensure
that the Commission’s regulatory framework would

The 1996 Act originally required biennial review but was later
amended to require quadrennial review. See Departments of Commerce, Justice, and State, the Judiciary, and Related Agencies Appropriations Act, 2004, Pub. L. No. 108-199, Div. B, Tit. VI, § 629(3),
118 Stat. 100.
2

5
keep pace with the competitive changes in the marketplace.’ ” Prometheus I, 373 F.3d at 391 (quoting In re
The 2002 Biennial Regulatory Review, 18 FCC Rcd
4726, 4732 (2003) (2003 Report)).
B. 2002 Biennial Review

1. In its 2002 biennial review proceeding, the Commission identified “diversity, competition, and localism”
as the “policy goals” that would guide its analysis of the
“public interest” under Section 202(h). In re 2002 Biennial Regulatory Review, 18 FCC Rcd 13,620, 13,645
(2003) (2002 Review); 47 U.S.C. 303 note. It further
identified five relevant types of diversity: “viewpoint,
outlet, program, source, and minority and female ownership diversity.” 2002 Review, 18 FCC Rcd at 13,627;
see id. at 13,627-13,645. Of the five, the Commission
deemed viewpoint diversity “a paramount objective,”
“because the free flow of ideas under-girds and sustains
our system of government.” Id. at 13,631.
In analyzing whether its “current broadcast ownership rules [we]re necessary to achieve these goals,”
2002 Review, 18 FCC Rcd at 13,627, the FCC confronted a media landscape in which “[t]here [we]re far
more types of media available,” “far more outlets pertype of media,” and “far more news and public interest
programming options available to the public * * * than
ever before,” id. at 13,667. Given this changed environment, the Commission determined that wide-ranging
regulatory reforms were needed. Among other things,
the FCC eliminated its ban (originally adopted in 1975)
on common ownership of daily newspapers and broadcast stations in a single market. Id. at 13,748; see In re
Amendment of Sections 73.34, 73.240, & 73.636 of the
Commission’s Rules Relating to Multiple Ownership of
Standard, FM, & Television Broad. Stations, 50 FCC

6
2d 1046, 1075, amended on reconsideration, 53 FCC 2d
589 (1975) (Multiple Ownership). The Commission
found that the ban was no longer necessary to promote
competition or viewpoint diversity given the proliferation of new media sources, 2002 Review, 18 FCC Rcd at
13,748-13,754, 13,760-13,767, and that the efficiencies
resulting from cross-ownership could promote localism,
id. at 13,753-13,760. The FCC replaced the blanket ban
with new, market-specific limits. Id. at 13,775. The
Commission also repealed the Failed Station Solicitation Rule (FSSR), which had required certain owners of
failed television stations to attempt to secure out-ofmarket buyers for their stations before selling to inmarket buyers. Id. at 13,708.
2. A divided three-judge panel of the Third Circuit
vacated and remanded the FCC’s order in substantial
part. Prometheus I, supra. The panel unanimously
held that “reasoned analysis supports the Commission’s
determination that the blanket ban on newspaper/
broadcast cross-ownership was no longer in the public
interest.” 373 F.3d at 398; see id. at 398-400. Two
judges concluded, however, that the FCC had not adequately justified the specific substitute limits it had selected. Id. at 402-411. The panel also vacated and remanded the FCC’s repeal of the FSSR. The court noted
that “preserving minority ownership was the purpose of
the FSSR,” and it concluded that the agency had acted
arbitrarily and capriciously by failing to “mention anything about the effect this change would have on poten-

7
tial minority station owners.” Id. at 420. The panel retained jurisdiction over the remand proceedings. Id. at
435.3
Chief Judge Scirica dissented in part. He concluded
that the panel majority had impermissibly “secondguess[ed]” the FCC’s “reasoned policy judgments” and
had failed to accord proper deference to the Commission’s “predictive judgments,” particularly “[g]iven the
dynamic nature of the industry.” Prometheus I, 373
F.3d at 435, 439. He viewed it as more “prudent” to permit the new rules to take effect, “monitor the resulting
impact on the media marketplace, and allow the Commission to refine or modify its approach in its next quadrennial review.” Id. at 439. Chief Judge Scirica warned
that the court was “[s]hort-circuiting the statutory review process,” thereby “depriv[ing] both the Commission and Congress [of ] the valuable opportunity to evaluate the new rules and the effects of deregulation on the
media marketplace.” Id. at 438.
C. 2006 Quadrennial Review

1. Following the Third Circuit’s remand, the Commission initiated its 2006 quadrennial review with a notice of proposed rulemaking intended in part to address
the issues raised in the panel’s opinion. See In re 2006
Quadrennial Regulatory Review, 21 FCC Rcd 8834,
8835 (2006). The FCC “urge[d] commenters to explain
the effects, if any, that their ownership rule proposals
will have on ownership of broadcast outlets by minorities, women and small businesses.” Id. at 8837.
The panel also noted that the FCC had “deferred consideration”
of a number of “other proposals for advancing minority and disadvantaged businesses and for promoting diversity in broadcasting.”
Prometheus I, 373 F.3d at 421 n.59. It directed the Commission to
address those proposals on remand. Ibid.
3

8
In its final rulemaking, the Commission noted the
continued evolution of media markets. In re 2006 Quadrennial Regulatory Review, 23 FCC Rcd 2010, 2022
(2008). It observed that “[t]he steep reduction in newspaper circulation in recent years has triggered a cascade of negative impacts,” and that regulatory changes
were appropriate to ensure that cross-ownership restrictions would “not unduly stifle efficient combinations that are likely to preserve or increase the amount
and quality of local news available to consumers via
newspaper and broadcast outlets.” Id. at 2026, 2030.
The FCC further explained that the proliferation of media sources meant that certain “combinations no longer
pose[d] the same threat to diversity that they once did.”
Id. at 2032; see id. at 2031-2032. In light of these
changes, the FCC again sought to “relax the 32-yearold newspaper/broadcast cross-ownership ban,” this
time in favor of a case-by-case approach guided by presumptions and a four-factor test. Id. at 2030; see id. at
2018-2019.
In a separate order designed to promote broadcastownership diversity, including ownership by women and
minorities, the FCC adopted various measures to increase opportunities for “eligible entities,” which it defined to include certain small businesses. In re Promoting Diversification of Ownership in the Broad. Servs.,
23 FCC Rcd 5922, 5925 (2008); see id. at 5925-5927. The
Commission also sought comment on whether it should
adopt an expressly race-conscious definition of “eligible
entit[y],” noting that any such definition would need to
satisfy strict scrutiny. Id. at 5950; see id. at 5950-5951.
2. On review, the same divided Third Circuit panel
again vacated the Commission’s regulatory changes in
significant part. Prometheus Radio Project v. FCC, 652

9
F.3d 431, 470 (2011) (Prometheus II), cert. denied, 567
U.S. 951 (2012). The majority invalidated the FCC’s
repeal of the blanket newspaper/broadcast crossownership ban on the ground that the agency had not
provided adequate notice and opportunity for comment.
Id. at 445-454. The court also invalidated the “eligible
entity” definition as arbitrary and capricious. Noting that
the definition was designed to “increas[e] broadcast
ownership by minorities and women,” id. at 469, the court
faulted the Commission for failing to “explain how the
eligible entity definition adopted would” achieve that
goal, id. at 470, and ordered the agency to consider a
race-based definition on remand, id. at 471 & n.42. The
court retained jurisdiction over the remanded issues.
Id. at 472.
Judge Scirica again dissented in part. Prometheus
II, 652 F.3d at 472-475. He would have held that the
agency had complied with notice-and-comment requirements, and he criticized the majority for “preserv[ing]
an outdated and twice-abandoned ban” on newspaper/
broadcast cross-ownership. Id. at 472; see id. at 472473. Judge Scirica also dissented from the court’s decision to retain jurisdiction over the remand proceedings.
Id. at 473.
D. 2010 and 2014 Quadrennial Reviews

1. a. The FCC began the 2010 quadrennial review
with a series of workshops, including one on “how the
media ownership rules affect the Commission’s goal of
promoting minority and female ownership and other issues relating to diversity in broadcasting.” In re 2010
Quadrennial Regulatory Review, 26 FCC Rcd 17,489,
17,492 n.10 (2011) (2011 Notice). In subsequent notices
of inquiry and then of proposed rulemaking, the agency
sought public input on the effect of the media ownership

10
rules on minority and female ownership, and it “invite[d] commenters to support their comments with
sound empirical evidence demonstrating a link between
structural rules and our diversity goal.” In re 2010
Quadrennial Regulatory Review, 25 FCC Rcd 6086,
6106 (2010); see, e.g., id. at 6100, 6108-6109; 2011 Notice,
26 FCC Rcd at 17,494, 17,511, 17,518, 17,532, 17,538.
The FCC also invited comment on 11 peer-reviewed
studies that it had commissioned “[t]o provide data on
the impact of market structure on the Commission’s
policy goals of competition, localism and diversity.”
2011 Notice, 26 FCC Rcd at 17,556; see id. at 17,56117,564 (describing “studies relating to diversity” and
“minority and women ownership issues”) (capitalization
and emphasis omitted).
The agency subsequently consolidated the 2010 and
2014 quadrennial reviews and issued a further notice of
proposed rulemaking. See In re 2014 Quadrennial Regulatory Review, 29 FCC Rcd 4371 (2014) (2014 Review)
(excerpted at J.A. 58-100); see also J.A. 60. In the 2014
Review, the Commission observed that it did “not believe the record evidence shows that the [newspaper/
broadcast] cross-ownership ban has protected or promoted minority or female ownership of broadcast stations in the past 35 years, or that it could be expected to
do so in the future.” J.A. 83; see J.A. 97 (same for radio/television cross-ownership rule). The FCC further
noted that it did “not believe that a study could extrapolate with any degree of confidence the effect that
changing the Commission’s cross-ownership rules
would have on minority and female ownership levels,
and any attempt to do so would be misleading.” J.A. 95

11
n.595. The agency nevertheless sought further comment on these issues. See, e.g., J.A. 83, 90, 95 n.595, 97.4
In 2016, the FCC promulgated a final order. See 31
FCC Rcd 9864 (2016 Order) (J.A. 101-576). The Commission relaxed certain discrete aspects of the newspaper/
broadcast cross-ownership rule, concluding that the record “fail[ed] to demonstrate” that doing so was “likely
to result in harm to minority and female ownership.”
J.A. 292; see J.A. 291-292 (summarizing modifications
to rule). The agency otherwise generally retained the
newspaper/broadcast cross-ownership rule, as well as
the radio/television cross-ownership rule and the local
television ownership rule, which restricts the television
stations an entity can own in a single market. It did so
for the stated purposes of “promot[ing] competition”
and “viewpoint diversity,” and “not with the purpose of
preserving or creating specific amounts of minority and
female ownership”—though it found that the rules “promote opportunities for diversity” as a general matter.
J.A. 171-172, 293, 310.
The FCC rejected the argument that tightening the
local television ownership rule would “promote increased
opportunities for minority and female ownership,” describing that contention as “both speculative and unsupported by existing ownership data.” J.A. 174. In reaching that conclusion, the FCC relied in part on a comparison of minority ownership levels before and after prior
In 2015, interested parties petitioned for review, arguing (among
other things) that the Commission had unreasonably delayed in
adopting a new definition of “eligible entity.” Prometheus Radio
Project v. FCC, 824 F.3d 33, 37 (3d Cir. 2016). The same Third Circuit panel agreed and remanded with an order for the FCC to act
promptly, again emphasizing the Commission’s “obligation to promote ownership by minorities and women.” Id. at 48; see id. at 37.
The panel retained jurisdiction over the remanded issues. Id. at 60.
4

12
relaxations of certain ownership rules in the 1990s.
That comparison showed a long-term increase in minority ownership levels. See J.A. 174-176 (comparing historical National Telecommunications and Information
Administration (NTIA) data and recent FCC Form 323
data); see also J.A. 214-216.
In response to the Third Circuit’s remand, the
agency also analyzed the possibility of adopting a raceor gender-specific “eligible entity” definition. It concluded that the record evidence did not satisfy the exacting constitutional standards for adopting such an approach. J.A. 389-429. The FCC instead reinstituted the
revenue-based definition from its prior order. J.A. 370388. Rather than justify this definition on the ground
that it would promote minority and female ownership,
the agency explained that the definition was indisputably well-tailored to promote media ownership by small
businesses and new entrants—a different, but also worthy, diversity goal. J.A. 375-376, 378-388. The agency
predicted that the definition would further both competition and viewpoint diversity. J.A. 379.
b. On reconsideration motions filed by various parties, the Commission determined that changed market
conditions justified a broader overhaul of its ownership
rules. See 32 FCC Rcd 9802 (Reconsideration Order)
(NAB Pet. App. 64a-310a). Among other things, the
agency repealed its newspaper/broadcast cross-ownership
and radio/television cross-ownership rules and modified
the local television ownership rule. NAB Pet. App. 68a69a.5 In support of these modifications, the agency cited

The agency’s primary modification to the local television ownership rule was its repeal of the “Eight-Voices Test,” which had previously required “that at least eight independently owned television
5

13
extensive changes to the media landscape, including the
substantially increased number of broadcast voices; the
newspaper industry’s continued decline; radio’s diminished importance in contributing to viewpoint diversity;
and the explosive growth of nontraditional media outlets such as independent, online news outlets and cable
and satellite programming. Id. at 88a-107a, 127a-138a,
142a-147a. The FCC explained that each of these developments had reduced the likelihood that consolidation
would lead to diminished viewpoint diversity and had increased the potential for certain combinations to generate economic efficiencies and help preserve traditional
media outlets. See, e.g., id. at 77a-78a.
The FCC also addressed in detail the potential impact of its changes on minority and female ownership.
Examining the record developed “[a]fter seeking public
comment on this topic a number of times,” NAB Pet.
App. 117a, and recognizing the limitations of existing
data, see, e.g., 2016 Order, J.A. 214-216, the FCC again
noted that prior relaxations of media ownership restrictions had not led to an overall decline in minorityowned stations, Reconsideration Order, NAB Pet. App.
119a-120a, 138a-139a, 161a-162a. The Commission further observed that no commenter had produced meaningful evidence showing a likely negative impact on minority and female ownership, id. at 117a-121a, 138a139a, 161a-162a, and that “two organizations representing minority media owners” had sought “relief from the
[newspaper/broadcast cross-ownership] rule’s restrictions,” id. at 117a. Acknowledging the 2016 Order’s
observation that the ownership rules “promote[ ] oppor-

stations must remain in the market after combining ownership of
two stations in a market.” NAB Pet. App. 140a.

14
tunities for diversity,” J.A. 172, 293, 310, the FCC explained that this statement “did not indicate a belief
that the rule[s] would promote minority and female
ownership specifically, but rather that the rule[s] would
promote ownership diversity generally by requiring the
separation of [media] station ownership,” Reconsideration Order, NAB Pet. App. 122a; see id. at 139a-140a,
162a. The Commission ultimately concluded that nothing in the record suggested the Order’s changes were
likely to produce an adverse effect on minority and female ownership of broadcast stations, and that the existing rules could not “be justified based on the unsubstantiated hope that [they] will promote minority and
female ownership.” Id. at 162a; see id. at 117a-122a,
138a-140a.
In a separate order, the FCC established a new “incubator program” to promote further its ownershipdiversity goals by pairing aspiring broadcast-station
owners with established broadcasters. J.A. 578-579; see
33 FCC Rcd 7911 (Incubator Order) (J.A. 577-704). The
Commission declined to adopt race- or gender-based eligibility criteria for the program for the same reasons it
had given in the 2016 Order. J.A. 605 & n.55. Instead,
it adopted criteria based on applicant size, designed to
foster entry into the broadcasting sector by entrepreneurs and small businesses. J.A. 592-598. The Commission noted that related eligibility criteria had previously
“increased successful participation of small businesses
owned by women and minorities” in auctions for broadcast construction permits, and it predicted similar effects for the incubator program. J.A. 598; see J.A. 598603.
2. On petitions for review, the same divided panel
again vacated the Commission’s regulatory action in

15
significant part. Pet. App. 1a-56a. The majority did not
challenge the agency’s core findings that market developments had rendered the repealed ownership rules unnecessary (and even harmful) with respect to competition, viewpoint diversity, and localism. Instead, it held
that the FCC’s determination that the revised rules
would “have minimal effect on female and minority ownership” was “not adequately supported by the record”
and therefore was arbitrary and capricious. Id. at 27a.
In support of that holding, the court cited the absence of any historical data pertaining specifically to the
effect of prior rule changes on female ownership. Pet.
App. 30a. It deemed the historical data pertaining to
minority ownership insufficiently precise, and it criticized the agency for not performing a more sophisticated statistical analysis. Id. at 30a-32a. Although the
court acknowledged that “[t]he APA imposes no general
obligation on agencies to produce empirical evidence,”
id. at 33a (quoting Stilwell v. Office of Thrift Supervision, 569 F.3d 514, 519 (D.C. Cir. 2009) (Kavanaugh, J.)
(brackets in original)), it found that principle inapplicable here, stating that “the reasoned explanation given
by the Commission rested on faulty and insubstantial
data.” Ibid.
The court of appeals vacated both the Reconsideration Order and the Incubator Order in full, as well as
the 2016 Order’s definition of “eligible entity.” Pet.
App. 34a. The court directed that “[o]n remand the
Commission must ascertain on record evidence the
likely effect of any rule changes it proposes and whatever ‘eligible entity’ definition it adopts on ownership by
women and minorities, whether through new empirical
research or an in-depth theoretical analysis.” Ibid. It
further held that, “[i]f [the FCC] finds that its proposed

16
definition for eligible entities will not meaningfully advance ownership diversity, it must explain why it could
not adopt an alternate definition that would do so.”
Ibid. The panel again retained jurisdiction over the remanded issues. Id. at 38a.
Judge Scirica again dissented in part. Pet. App. 39a56a. He observed that “[n]o party identifies any reason
to question the FCC’s key competitive findings and
judgments.” Id. at 48a. With respect to the new rules’
likely effects on ownership of broadcast stations by
women and minorities, he concluded that the agency
had reasonably determined—“based on its understanding
of the broadcast markets, the evidence in the record,
and the only data submitted—that repeal of the [preexisting] rules was unlikely to harm ownership diversity.”
Id. at 50a. He emphasized “that the Commission’s
judgment regarding how the public interest is best
served is entitled to substantial judicial deference,” id.
at 48a (quoting FCC v. WNCN Listeners Guild, 450
U.S. 582, 596 (1981)), and that “complete factual support
in the record for the Commission’s judgment or
prediction is not possible or required,” id. at 51a
(quoting NCCB, 436 U.S. at 814). In his view, “[t]he
FCC’s lack of some data relevant to one of [multiple]
considerations should not outweigh its reasonable
predictive judgments, particularly in the absence of any
contrary information, such that its entire policy update
is held up.” Id. at 52a. Judge Scirica stated that he
“would allow the rules to take effect and direct the FCC
to evaluate their effects on women- and minoritybroadcast ownership in its 2018 quadrennial review.”
Id. at 40a.

17
SUMMARY OF ARGUMENT

For the past 17 years, the same divided Third Circuit
panel has repeatedly prevented the Commission from
fulfilling Section 202(h)’s mandate that the agency
“shall” repeal or modify any ownership rule that the
agency determines is no longer “necessary in the public
interest as the result of competition.” 47 U.S.C. 303
note. The decision below flouts well-established principles of judicial deference to the Commission’s reasonable policy judgments and freezes in place outdated regulations, to the detriment of broadcast markets nationwide.
I. Background principles of administrative law require deference to predictive agency judgments made
after a thorough review of available data. Deference is
particularly appropriate in the present statutory context, where Congress has conferred broad authority on
the Commission to regulate in the public interest. This
Court has repeatedly recognized the breadth of the
FCC’s discretion to make informed inferences based on
incomplete data and to balance competing values in
promulgating rules. See, e.g., FCC v. National Citizens
Comm. for Broad., 436 U.S. 775 (1978). Judicial deference to agency discretion is also critical to the proper
operation of Section 202(h), which establishes an iterative process by which the FCC evaluates the public interest in light of the available data, revises its rules accordingly, and then monitors the effects of the amended
rules until the next quadrennial review.
II. Under these principles, the Orders at issue here
should be sustained. The FCC solicited extensive public
input, reviewed voluminous record materials, and drew
on its decades of regulatory experience. It acknowledged gaps in the data and drew cautious inferences

18
where it could. In the Reconsideration Order, it concluded that substantial benefits to competition and localism, coupled with the absence of record evidence suggesting harm to minority and female ownership, justified overhaul of the ownership rules. In the 2016 and
Incubator Orders, the FCC adopted programs designed
to promote market entry and defined the applicable eligibility criteria accordingly. Those policy judgments
fell well within the scope of the agency’s statutory discretion.
III. In the decision below, the panel majority did not
challenge the core findings on competition that underlay the FCC’s affirmative rationale for modifying its
ownership rules. The court instead vacated each of the
Orders in whole or in part based solely on its conclusion
that the agency had not adequately analyzed the Orders’ effects on minority and female ownership. The
court directed the Commission on remand to “ascertain
on record evidence the likely effect of any rule changes
it proposes * * * on ownership by women and minorities, whether through new empirical research or an indepth theoretical analysis.” Pet. App. 34a. That holding was erroneous in multiple respects.
Most significantly, the court of appeals erred in giving exaggerated weight to the bare possibility that the
challenged orders might affect minority and female
ownership levels in the broadcast industry. Although
the statute does not specifically identify minority or female ownership as a criterion the FCC must consider in
applying Section 202(h), the agency has traditionally
treated this form of broadcast diversity as an element
in its multi-factor public-interest analysis. But the
Commission has broad discretion to determine how
much weight to accord different aspects of the public

19
interest and how best to advance minority and female
ownership. See FCC v. WNCN Listeners Guild, 450
U.S. 582, 600 (1981). That is particularly so where, as
here, the agency determines that a regulatory change is
warranted for reasons unrelated to minority or female
ownership. The panel majority’s holding flouts these
principles. And by directing the FCC to conduct a particular analysis on remand, the court also improperly
imposed an atextual procedural requirement on agency
decision-making. See Vermont Yankee Nuclear Power
Corp. v. Natural Res. Def. Council, Inc., 435 U.S. 519,
549 (1978).
In addition, the panel majority impermissibly “substitut[ed] its judgment for that of the agency.” Motor
Vehicle Mfrs. Ass’n of the U.S., Inc. v. State Farm Mut.
Auto. Ins. Co., 463 U.S. 29, 43 (1983). The court faulted
the Commission for failing to cite any evidence concerning the effect of prior rule changes on female ownership.
But as the FCC had explained, despite repeated requests for comment on this subject, no such information
exists. The panel also criticized the Commission for relying on disparate data sets in assessing the effects of
historical rule changes, as well as for failing to conduct
a more sophisticated statistical analysis. But the Commission relied on the evidence available, while acknowledging potential inadequacies in the data. Given the undisputed competitive benefits of the proposed rule
changes, the agency reasonably determined that the
changes were in the public interest despite the bare possibility that they might reduce minority and female
ownership.
The court of appeals’ requirement of a high degree
of empirical certainty before revising any ownership
rules also impairs the operation of Section 202(h). That

20
requirement effectively prevents the Commission from
updating its rules to accord with undisputed changes to
the competitive landscape. As a result, broadcast markets nationwide remain saddled with outdated regulations that prevent struggling traditional outlets from
entering transactions that might allow them to retain
economic vitality. And by preventing the FCC’s revised
rules from taking effect, the panel’s decision forecloses
the agency from acquiring data concerning the rules’ actual impact on minority and female ownership—data
that could otherwise have been considered during the
next quadrennial review to determine whether further
regulatory amendments are warranted.
Finally, the court of appeals compounded these errors with a dramatically overbroad remedy. Although
the court analyzed only the reasoning that underlay the
ownership rules, it vacated the Reconsideration and Incubator Orders in full, as well as the “eligible entity”
definition from the 2016 Order. It further held that, if
the Commission finds on remand “that its proposed definition for eligible entities will not meaningfully advance
ownership diversity, it must explain why it could not
adopt an alternate definition that would do so.” Pet.
App. 34a. But nothing in the statutory framework suggests that the FCC is foreclosed from pursuing one
form of broadcast diversity in a particular regulatory
program unless that program will further a different
form of diversity as well. The court’s eligible-entity directive also disregards the record, which contains extensive analysis explaining these aspects of the FCC’s
policy choices and its rejection of alternative approaches.

21
ARGUMENT
I. THE FCC HAS BROAD STATUTORY AUTHORITY TO
REGULATE MEDIA OWNERSHIP IN THE PUBLIC
INTEREST

Bedrock administrative-law principles require courts
to defer to agencies’ reasoned policy choices and predictive judgments. Those background principles carry
heightened force in this context. This Court has repeatedly affirmed the Commission’s broad authority to regulate in the public interest, and judicial deference is
critical to the practical operation of Section 202(h).
A. The APA Requires Judicial Deference To Reasoned
Agency Judgments

The Administrative Procedure Act (APA), 5 U.S.C.
701 et seq., authorizes courts to set aside agency action
that is “arbitrary, capricious, an abuse of discretion,
or otherwise not in accordance with law.” 5 U.S.C.
706(2)(A). “The scope of review under the ‘arbitrary
and capricious’ standard is narrow and a court is not to
substitute its judgment for that of the agency.” Motor
Vehicle Mfrs. Ass’n of the U.S., Inc. v. State Farm Mut.
Auto. Ins. Co., 463 U.S. 29, 43 (1983). To satisfy judicial
scrutiny, an agency need only “examine the relevant
data and articulate a satisfactory explanation for its action including a ‘rational connection between the facts
found and the choice made.’ ” Ibid. (quoting Burlington
Truck Lines, Inc. v. United States, 371 U.S. 156, 168
(1962)).
In evaluating whether an agency action is arbitrary
and capricious, “[a] court is not to ask whether a regulatory decision is the best one possible or even whether
it is better than the alternatives.” FERC v. Electric
Power Supply Ass’n, 136 S. Ct. 760, 782 (2016). Instead,

22
agency action typically will be deemed arbitrary and capricious only “if the agency has relied on factors which
Congress has not intended it to consider, entirely failed
to consider an important aspect of the problem, offered
an explanation for its decision that runs counter to the
evidence before the agency, or is so implausible that it
could not be ascribed to a difference in view or the product of agency expertise.” State Farm, 463 U.S. at 43.
The arbitrary-and-capricious standard accords agencies substantial leeway to draw inferences from incomplete evidence and to make reasonable policy judgments in the face of empirical uncertainty. “The APA
imposes no general obligation on agencies to produce
empirical evidence,” Stilwell v. Office of Thrift Supervision, 569 F.3d 514, 519 (D.C. Cir. 2009) (Kavanaugh, J.),
and “[i]t is not infrequent that the available data do not
settle a regulatory issue,” State Farm, 463 U.S. at 52.
In that circumstance, an agency must “exercise its judgment in moving from the facts and probabilities on the
record to a policy conclusion.” Ibid.
If the agency “justif [ies]” that policy conclusion
“with a reasoned explanation,” its decision is entitled to
deference. Stilwell, 569 F.3d at 519; see State Farm,
463 U.S. at 52 (agency action is not “arbitrary and capricious simply because there was no evidence in direct
support of the agency’s conclusion”). That principle is
especially apt when the relevant data are difficult or impossible to obtain, see FCC v. Fox Television Stations,
Inc., 556 U.S. 502, 519 (2009) (“It is one thing to set
aside agency action under the [APA] because of failure
to adduce empirical data that can readily be obtained.
* * * It is something else to insist upon obtaining the
unobtainable.”), or when the relevant policy determinations require “value-laden decisionmaking and the

23
weighing of incommensurables under conditions of uncertainty,” Department of Commerce v. New York, 139
S. Ct. 2551, 2571 (2019).
B. Judicial Deference Is Especially Warranted When The
FCC Regulates In The Public Interest Under Section
202(h)

The background principles of judicial deference that
inform all review under the APA carry heightened force
when, as in this case, a court evaluates the FCC’s policy
judgments about whether broadcast-ownership rules
continue to serve the public interest.
1. Virtually since the Commission’s inception, this
Court has recognized the agency’s broad statutory authority to regulate in the public interest, which includes
the discretion to draw reasonable inferences from the
available evidence and to weigh competing priorities.
See 47 U.S.C. 303 & note; 47 U.S.C. 309(a). 6 The Court
has reaffirmed that authority repeatedly across the decades.
In National Broadcasting Co. v. United States, 319
U.S. 190 (1943) (NBC), plaintiffs challenged FCC rules
that regulated contractual arrangements between networks and local broadcasting stations. Id. at 224. In
rejecting that challenge, the Court observed that “[i]t is
not for us to say that the ‘public interest’ will be furthered or retarded by the” regulations, and the Court’s
“duty is at an end when we find that the action of the
Commission was based upon findings supported by evidence, and was made pursuant to authority granted by
The meaning of “public interest” is the same whether the Commission is promulgating a new rule or repealing an existing rule under Section 202(h). See Prometheus Radio Project v. FCC, 373 F.3d
372, 394 n.17 (3d Cir. 2004), as amended (June 3, 2016), cert. denied,
545 U.S. 1123 (2005).
6

24
Congress.” Ibid. The Court further explained that “the
wisdom of any action [the Commission] took would have
to be tested by experience,” and “[i]f time and changing
circumstances reveal that the ‘public interest’ is not
served by application of the Regulations, it must be assumed that the Commission will act in accordance with
its statutory obligations.” Id. at 225.
The Court reaffirmed and amplified these principles
in a subsequent decision involving one of the very same
ownership rules—the newspaper/broadcast crossownership rule—at issue here. In FCC v. National Citizens Committee for Broadcasting, 436 U.S. 775 (1978),
the Court rejected challenges to the rule, which, at the
time, prospectively limited combinations between newspapers and broadcast stations and required limited divestiture of existing combinations. Id. at 779. The challengers argued that “the rulemaking record did not conclusively establish that prohibiting common ownership
of co-located newspapers and broadcast stations would
in fact lead to increases in the diversity of viewpoints.”
Id. at 796. In rejecting that attack, the Court acknowledged “the inconclusiveness of the rulemaking record.”
Ibid. The Court observed, however, that “evidence of
specific abuses by common owners is difficult to compile,” and “ ‘the possible benefits of competition do not
lend themselves to detailed forecast.’ ” Id. at 797 (quoting FCC v. RCA Commc’ns, Inc., 346 U.S. 86, 96-97
(1953)). The Court concluded that, “[i]n these circumstances, the Commission was entitled to rely on its judgment, based on experience.” Ibid.
In FCC v. WNCN Listeners Guild, 450 U.S. 582
(1981), this Court clarified that the Commission not only
has broad discretion to promote the public interest, but
also has wide latitude in prioritizing competing aspects

25
of the public interest. In that case, the Court rejected
a challenge to an FCC policy pertaining to programming diversity. Id. at 585. Emphasizing “that the Commission’s judgment regarding how the public interest is
best served is entitled to substantial judicial deference,”
id. at 596, the Court observed that “diversity is not the
only policy the Commission must consider in fulfilling
its responsibilities under the Act.” Ibid. Although the
Court “approved of the Commission’s goal of promoting
diversity in radio programming,” it noted that the FCC
was “vested with broad discretion in determining how
much weight should be given to that goal and what policies should be pursued in promoting it.” Id. at 600. The
Court ultimately concluded that the challenged policy
“reflect[ed] a reasonable accommodation” of competing
interests. Id. at 596.
2. There is no cause for departing from this Court’s
broad conception of FCC authority in the context of
Section 202(h) reviews. To the contrary, judicial deference to agency discretion is indispensable to both the
structure and practical operation of Section 202(h). See
Prometheus Radio Project v. FCC, 824 F.3d 33, 40
(3d Cir. 2016) (Prometheus III) (acknowledging that
Section 202(h) “affects our standard of review”).
“The text and legislative history of the 1996 Act indicate that Congress intended periodic reviews to operate as an ‘ongoing mechanism to ensure that the Commission’s regulatory framework would keep pace with
the competitive changes in the marketplace.’ ” Prometheus Radio Project v. FCC, 373 F.3d 372, 391 (3d Cir.
2004), as amended (June 3, 2016) (quoting 2003 Report,
18 FCC Rcd at 4732), cert. denied, 545 U.S. 1123 (2005).
Congress “[r]ecogniz[ed] that competitive changes in

26
the media marketplace could obviate the public necessity for some of the Commission’s ownership rules,” and
it accordingly “require[d] the Commission to ‘monitor
the effect of competition and make appropriate adjustments’ to its regulations.” Ibid. (quoting 2003 Report,
18 FCC Rcd at 4727) (ellipses omitted). The statutory
requirement that the Commission conduct quadrennial
reviews is critical to the proper functioning of this process. If the agency waits too long between rule appraisals, the competitive landscape may quickly outpace the
existing regulatory structure.
By its nature, the Section 202(h) review process thus
requires the FCC to make predictive judgments on the
basis of imperfect information. To comply with its statutory mandate, the Commission must evaluate recent
changes to the marketplace in a relatively short period
of time and revise its rules accordingly. The statute
contemplates a rolling series of public-interest assessments, conducted on the basis of the available evidence,
to ensure that the ownership rules remain generally in
line with competitive realities. See Pet. App. 52a (Scirica, J., concurring in part and dissenting in part) (“The
FCC must ‘repeal or modify’ rules that cease to serve
the public interest even when it lacks optimal data.”)
(quoting 47 U.S.C. 303 note). If the Commission were
required to gather perfect data, including perfect data
concerning every potential subsidiary effect of a rule
change, that iterative process would be infeasible.
The four-year review cycle also ensures that suboptimal rules will have a limited shelf-life. The gap between Section 202(h) proceedings enables the agency to
study the practical effects of any recent rule modifications. See Pet. App. 48a (Scirica, J., concurring in part

27
and dissenting in part) (“Congress prescribed an iterative process; the FCC must take a fresh look at its rules
every four years. This process assumes the FCC can
gain experience with its policies so it may assess how its
rules function in the marketplace.”). If the Commission’s predictive judgments turn out to be imperfect or
incomplete, it can—and, indeed, must—adjust the rules
accordingly in the next quadrennial review. Cf. NBC,
319 U.S. at 225; FPC v. Hope Nat. Gas Co., 320 U.S. 591,
615 (1944) (approving agency action in part because
“[t]his is not an order for all time,” and “[t]he Act contains machinery for obtaining rate adjustments”).
In short, Section 202(h) compels agency decisionmaking under conditions of uncertainty while mitigating any harmful effects that erroneous forecasts may
produce. Judicial deference to agency judgments is crucial to the proper functioning of this process.
II. IN FASHIONING THE ORDERS AT ISSUE IN THIS
CASE, THE COMMISSION MADE REASONABLE POLICY
JUDGMENTS BASED ON THE AVAILABLE FACTS

Under the principles set forth above, the Orders at
issue here easily survive review. The FCC solicited extensive public input, reviewed voluminous record materials, and adopted policies that reasonably accommodated competing interests, taking account of both the
record and the agency’s decades of experience. In the
challenged Orders, the FCC “examine[d] the relevant
data and articulate[d] a satisfactory explanation for its
action[s] including a ‘rational connection between the
facts found and the choice made.’ ” State Farm, 463 U.S.
at 43 (quoting Burlington, 371 U.S. at 168).

28
A. The Reconsideration Order

In the Reconsideration Order, the Commission relaxed its cross-ownership and local-television-ownership
restrictions after amassing extensive evidence regarding the changed media landscape. The industry developments that informed the FCC’s regulatory choices included a dramatic increase in broadcasting voices; a
diminution in the significance of newspaper and radio;
and an explosive growth of nontraditional media outlets.
NAB Pet. App. 88a-107a, 128a-135a, 146a-147a. As a result of these competitive changes, and based on a balancing of the relevant considerations—including potential effects on minority and female ownership—the
Commission reasonably concluded that the regulations
no longer served the public interest.
With respect to the newspaper/broadcast crossownership rule, the FCC found that “the limited benefits for viewpoint diversity of retaining the rule * * *
are outweighed by the costs of preventing traditional
news providers from pursuing cross-ownership investment opportunities to provide news and information in
a manner that is likely to ensure a more informed electorate.” NAB Pet. App. 78a; see id. at 101a-102a
(“[E]liminating the [rule] will allow both broadcasters
and newspapers to seek out new sources of investment
and operational expertise, increasing the quantity and
quality of local news and information they provide in
their local markets.”). The Commission similarly concluded that it could “no longer justify retention of the
[radio/television cross-ownership] rule in light of broadcast radio’s diminished contributions to viewpoint diversity and the variety of other media outlets that contribute to viewpoint diversity in local markets.” Id. at

29
123a-124a. And with respect to the local television ownership rule, the FCC pointed to evidence that the EightVoices test (see p. 12 n.5, supra) “lacks any economic
support, is inconsistent with the realities of the television marketplace, and prevents combinations that
would likely produce significant public interest benefits.” NAB Pet. App. 151a-152a.
The FCC also evaluated the impact its revisions
might have on minority and female ownership. Its analysis on this subject was the product of an intensive,
multi-year investigation. After soliciting comment in
2006 (and repeatedly thereafter), the Commission in
2014 proposed to relax the cross-ownership rules, concluding that the record evidence did not show the rules
had “protected or promoted minority or female ownership of broadcast stations” or “could be expected to do
so in the future.” 2014 Review, J.A. 83, 97.
In the 2016 Order, following additional public comment, the Commission concluded that the record
“fail[ed] to demonstrate” that relaxing the newspaper/broadcast cross-ownership rule was “likely to result
in harm to minority and female ownership.” J.A. 292.
Although the agency otherwise largely retained the
ownership rules, it did so to further “competition” and
“viewpoint diversity,” and “not with the purpose of preserving or creating specific amounts of minority and female ownership.” J.A. 171-172, 293, 310. The FCC recognized certain limitations in the record evidence, but
explained that the agency “must rely on the available
data, and our findings herein are consistent with the
data.” J.A. 174 n.211; see J.A. 215 n.325.
On reconsideration, the FCC reaffirmed its view that
the record failed to demonstrate either that the ownership rules “promote or protect minority and female

30
ownership,” NAB Pet. App. 117a, or “a causal connection between modifications” to the rules “and minority
and female ownership levels,” id. at 161a-162a; see id.
at 138a-139a; see also id. at 117a (noting that “organizations representing minority media owners seek relief
from” the newspaper/broadcast cross-ownership rule).
Given the dramatic changes to the competitive landscape, and the Commission’s own prior observation that
minority and female ownership is merely “one of
many—sometimes competing—goals that [the agency]
must balance when setting [its] numerical ownership
limits,” 2014 Review, J.A. 79, the FCC concluded that
the existing ownership restrictions could not “be justified based on the unsubstantiated hope that [they] will
promote minority and female ownership,” Reconsideration Order, NAB Pet. App. 162a; see id. at 122a, 140a.
That conclusion was especially reasonable in light of
the Commission’s determination that the original rationales for the repealed rules—namely, preserving competition and promoting viewpoint diversity—no longer
apply. See, e.g., Multiple Ownership, 50 FCC 2d at 1074
(promulgating newspaper/broadcast cross-ownership
rule). If the Commission had not previously adopted
any ownership restrictions, and private parties had
urged the agency to do so now in order to promote minority and female ownership of broadcast stations, the
burden clearly would have been on the proponents to
identify evidence that the proposed restrictions would
have the desired effect. See Massachusetts v. EPA, 549
U.S. 497, 527-528 (2007) (review of denials of rulemaking petitions is “ ‘extremely limited’ and ‘highly deferential’ ”) (citation omitted); Capital Network Sys., Inc.
v. FCC, 3 F.3d 1526, 1533 (D.C. Cir. 1993) (“The FCC
may * * * decline to initiate rulemaking proceedings

31
up until the moment when indisputable evidence of the
need for such proceedings has been presented to it.”).
Once an existing rule has ceased to serve its original
purpose, it is similarly reasonable to expect commenting parties who advance new rationales for that rule to
support their positions with evidence. Respondents
failed to do so here. See Pet. App. 33a.
Finally, the Commission’s longstanding data-collection
efforts have reduced the likelihood of predictive error.
See Pet. App. 52a (Scirica, J. concurring in part and dissenting in part) (noting “measures that could make the
FCC’s data more reliable, benefiting future quadrennial reviews”). The Commission began to collect race
and gender data from broadcasters in 1998, and it has
periodically revised its collection processes since that
time to improve the data’s accuracy and utility. See,
e.g., 2016 Order, J.A. 364 (noting “improvements [that]
address the Third Circuit’s directive that the Commission obtain more and better data concerning broadcast
ownership to support its rulemaking decisions”); id. at
355-369; In re Promoting Diversification of Ownership
in the Broad. Servs., 24 FCC Rcd 5896, 5897-5898
(2009). The Commission currently collects detailed
ownership information from both television and radio
stations in each odd-numbered year, allowing it to produce “ ‘snapshots’ of the status of minority and female
ownership in the broadcast industry taken every two
years.” Fourth Report on Ownership of Broad. Stations, 35 FCC Rcd 1217, 1220 (2020). These data will
assist the Commission in evaluating the impact of any
revised rules on minority and female ownership and in
determining whether future rule changes are warranted.

32
B. The 2016 And Incubator Orders

The Commission’s policy judgments in the 2016 and
Incubator Orders likewise deserve judicial deference.
In the 2016 Order, the FCC examined potential race- or
gender-conscious definitions of “eligible entity” and
concluded that any such definition likely would not satisfy constitutional requirements. See J.A. 397-429. To
avoid this issue and advance the separate, but equally
valid, goal of promoting small businesses and new entrants, the agency adopted a revenue-based definition.
J.A. 378-388.
Similarly in the Incubator Order, the Commission instituted a program “with the goal of creating ownership
opportunities for new entrants and small businesses,
thereby promoting competition and diversity in the
broadcast industry.” J.A. 578. To achieve that end, the
program is designed to mitigate such barriers as “lack
of access to capital” and the need for “operational, managerial, and technical support.” J.A. 595. The program’s eligibility criteria, centering on participant size
and revenue, are reasonably calculated to assist the new
and diverse entities that are the program’s intended
beneficiaries. J.A. 592-612.
III. THE COURT OF APPEALS’ CONTRARY HOLDING
REFLECTS SERIOUS ANALYTIC FLAWS

In finding the Commission’s reforms to be arbitrary
and capricious, the court of appeals took issue with
virtually none of the agency’s policy judgments, or with
the agency’s underlying reasoning or evidence. Instead,
the court identified a single public-interest consideration
—the potential effect of various regulatory changes on
minority and female ownership of broadcast stations—
and invalidated all three Orders in whole or in part
based on the FCC’s purportedly inadequate analysis of

33
that factor. That approach flouted the statutory text,
substituted the court’s judgment for that of the agency,
and undermined the basic purposes of Section 202(h).
The court then compounded these errors with a
dramatically overbroad remedy.
A. The Court Of Appeals Disregarded The Statutory Text

1. The court of appeals’ exclusive focus on racial and
gender diversity in station ownership reflects a failure
to appreciate the substantial discretion that the statutory scheme grants the FCC in regulating broadcast
markets. Section 202(h) requires the FCC to review existing ownership regulations quadrennially to determine “whether any of such rules are necessary in the
public interest as the result of competition.” 47 U.S.C.
303 note. Here, neither the court of appeals nor any
party “identifie[d] any reason to question the FCC’s key
competitive findings and judgments” that the ownership rules were both obsolete and potentially harmful.
Pet. App. 48a (Scirica, J., concurring in part and dissenting in part).
Instead, the panel treated minority and female ownership as a threshold, dispositive consideration in all
FCC quadrennial-review proceedings. Pet. App. 34a
(holding that “the Commission must ascertain on record
evidence the likely effect of any rule changes it proposes
* * * on ownership by women and minorities, whether
through new empirical research or an in-depth theoretical analysis”). In so doing, the court effectively displaced the Commission’s traditional approach to regulating in the public interest, which emphasizes competition and viewpoint diversity while also taking into account a broad range of additional considerations, including localism and other types of diversity. See 2002 Review, 18 FCC Rcd at 13,627.

34
The Third Circuit’s elevation of a single public-interest
factor, in circumstances where the data concerning that
factor were inconclusive and the agency had made its
decision for other reasons, cannot be squared with the
statute or with this Court’s precedent. Section 202(h)
does not even mention, let alone single out as dispositive, racial and gender diversity in the ownership of
broadcast stations. Although the FCC has long treated
minority and female ownership as one aspect of its multifactor public-interest inquiry, the FCC’s authority to
regulate in the public interest includes “broad discretion in determining how much weight should be given
to” various potentially competing objectives “and what
policies should be pursued in promoting” those goals.
WNCN, 450 U.S. at 600.
Nothing in the statute requires that every FCC rule
must advance each of the agency’s public-policy objectives. And when the Commission determines that a regulatory change will advance one public-interest objective, it can implement that change without definitively
ruling out any possibility that the change will disserve
some other policy goal. The goal of preserving and increasing minority and female ownership of broadcast
stations has long been an element of the Commission’s
public-interest determinations, but it is not an exception to these principles.
2. The Third Circuit’s directive that the FCC must
“ascertain on record evidence the likely effect of any
rule changes it proposes * * * on ownership by women
and minorities, whether through new empirical research
or an in-depth theoretical analysis,” Pet. App. 34a, also
improperly imposes a procedural requirement above
and beyond those that the APA and Section 202(h)
establish. “Time and again, [this Court has] reiterated

35
that the APA ‘sets forth the full extent of judicial
authority to review executive agency action for procedural correctness.’ ” Perez v. Mortgage Bankers
Ass’n, 575 U.S. 92, 101-102 (2015) (quoting Fox, 556 U.S.
at 513). “Beyond the APA’s minimum requirements, [a]
court[ ] lack[s] authority ‘to impose upon [an] agency its
own notion of which procedures are “best” or most
likely to further some vague, undefined public good.’ ”
Id. at 102 (quoting Vermont Yankee Nuclear Power
Corp. v. Natural Res. Def. Council, Inc., 435 U.S. 519,
549 (1978)) (fourth set of brackets in original). This
Court has accordingly “rejected courts’ attempts to
impose ‘judge-made procedur[es]’ in addition to the
APA’s mandates.” Little Sisters of the Poor Saints
Peter & Paul Home v. Pennsylvania, 140 S. Ct. 2367,
2385 (2020) (quoting Perez, 575 U.S. at 102) (brackets in
original).
The decision below violates these principles by
requiring, as a prerequisite to any change in the
Commission’s ownership rules, that the agency must
determine with some unstated degree of precision the
likely effect of the contemplated change on minority and
female ownership. Pet. App. 34a. The court did not
simply direct the agency to consider the existing record
and public comments more carefully, but effectively
required the FCC to supplement that record “through
new empirical research or an in-depth theoretical
analysis.” Ibid. Neither Section 202(h) nor the APA
imposes any such requirement. “That the [Third]
Circuit would have struck the balance differently does
not permit” it “to overturn Congress’ contrary judgment.” Perez, 575 U.S. at 102-103.

36
B. The Court Of Appeals Substituted Its Judgment For
That Of The Agency

The court below also erred in holding that the FCC
had not adequately explained the rationales for its Orders. See State Farm, 463 U.S. at 43. While acknowledging that an agency need only “justify its rule with a
reasoned explanation” and is not subject to any “general obligation * * * to produce empirical evidence,”
Pet. App. 33a (quoting Stilwell, 569 F.3d at 519), the
court vacated the Orders as purportedly “rest[ing] on
faulty and insubstantial data” pertaining to minority
and female ownership, ibid. It remanded with instructions for the agency to conduct “new empirical research” or an unspecified “in-depth theoretical analysis.” Id. at 34a; see pp. 34-35, supra.
That reasoning reflects a fundamental misunderstanding of the principles that govern judicial review of
agency action. The APA does not require perfect data,
especially on issues other than those that motivated the
rulemaking under review. Instead, when “the available
data do not settle a regulatory issue,” an agency may
“exercise its judgment in moving from the facts and
probabilities on the record to a policy conclusion.” State
Farm, 463 U.S. at 52; see NCCB, 436 U.S. at 814 (explaining, in the specific context of the FCC’s publicinterest determinations, that “complete factual support
in the record for the Commission’s judgment or prediction is not possible or required”). “To restrict the Commission’s action to cases in which tangible evidence appropriate for judicial determination is available” would
seriously constrict the agency’s statutory authority to
regulate in the public interest. RCA Commc’ns, 346
U.S. at 96. The court of appeals’ critiques of the agency’s reasoning ran afoul of these principles.

37
1. In issuing the Reconsideration Order, the FCC
did not overhaul its ownership restrictions because of
the effect that step was projected to have on minority
and female ownership. Rather, as its affirmative justification for the deregulatory approach it adopted, the
agency determined that the original rationales for the
ownership restrictions no longer applied, and that the
Reconsideration Order would substantially further
competition and localism in the broadcast industry. The
court of appeals did not dispute the reasonableness or
the empirical grounding of that aspect of the Commission’s analysis.
The FCC discussed the Order’s potential effect on
minority and female ownership only in the course of analyzing whether possible adverse impacts on such ownership should dissuade the agency from taking a deregulatory step that it otherwise viewed as highly desirable. The agency’s response to evidentiary gaps and predictive uncertainty must be assessed in light of that
overall decision-making process. The court of appeals’
insistence on more conclusive evidence and agency findings concerning this factor was especially unwarranted
here, since the FCC did not invoke racial or gender diversity as its rationale for the challenged Orders.
2. The court below primarily faulted the agency for
failing to cite any evidence regarding the effects that
the proposed rule changes would have on “gender
diversity.” Pet. App. 30a. But as the FCC explained in
the 2016 Order, no such evidence has been identified.
See J.A. 174 n.212, 215 n.325. Rather, the NTIA data
represent “the only data from [the relevant] time period
that are available for purposes of comparison and
evaluation of claims that relaxation” of prior ownership
rules affected minority and female ownership. J.A. 174

38
n.212. And the NTIA data sets do “not include separate
data on female ownership.” Ibid.
The FCC further explained that, even if it had access
to historical data pertaining to female ownership, “any
attempt to conduct an empirical study of the relationship
between cross-ownership restrictions and minority and
female ownership would face obstacles that likely would
make such study impractical and unreliable.” 2014 Review, J.A. 95 n.595. And despite multiple requests for
“comment on both study design and the likely connection” between the ownership rules and minority and
female ownership, see pp. 7, 9-11, supra, “[n]o commenter
introduced evidence” demonstrating “that changing the
rules would [ ]likely affect ownership diversity.” Pet.
App. 45a (Scirica, J., concurring in part and dissenting
in part); see Reconsideration Order, NAB Pet. App.
117a, 138a, 161a.
In rejecting the FCC’s explanations for the dearth of
probative evidence on this issue, the court of appeals
emphasized certain statements in the Reconsideration
Order to the effect that elimination of the ownership
rules would “not have a material impact on minority and
female ownership.” NAB Pet. App. 117a; see Pet. App.
30a; Br. in Opp. 31, 33 (advancing same argument). In
the court’s view, “any ostensible conclusion as to female
ownership was not based on any record evidence,” Pet.
App. 30a, and the Commission therefore acted improperly
by “proceed[ing] on the basis that consolidation will not
harm ownership diversity,” id. at 34a.
This critique, premised on stray FCC statements
taken out of context, was misplaced. To be sure, certain
statements in the Orders suggest a conclusion that the
rule changes would not reduce female (and minority)
ownership. See, e.g., NAB Pet. App. 117a. But those

39
statements must be read in the context of the agency’s
broader analysis and its repeated acknowledgements of
limitations in the available evidence. The agency’s
bottom-line conclusion, repeated throughout the rulemaking, was simply that the record evidence did not
affirmatively suggest any connection between the
ownership rules and female and minority ownership
levels. See, e.g., Reconsideration Order, NAB Pet. App.
122a (“The record does not suggest that restricting
common ownership of newspapers and broadcast stations promotes minority and female ownership of broadcast stations, and there is evidence in the record that
tends to support the contrary.”); id. at 138a (“[T]he
record fails to demonstrate that eliminating the Radio/
Television Cross-Ownership Rule is likely to harm
minority and female ownership.”); id. at 161a-162a
(“[T]he record does not support a causal connection
between modifications to the Local Television Ownership Rule and minority and female ownership levels.”).
The court of appeals did not take issue with that
judgment.
Given this empirical uncertainty and the substantial
competitive benefits of repeal, the agency made a discretionary policy judgment that it could not “justify
retaining the rule[s] * * * based on the unsubstantiated
hope that the rule[s] will promote minority and female
ownership.” Reconsideration Order, NAB Pet. App.
140a; see id. at 122a, 162a (similar). That judgment was
eminently reasonable. And, contrary to the court of
appeals’ conclusion, the FCC did not “entirely fail[ ] to
consider an important aspect of the problem.” Pet. App.
30a (citation omitted). The agency recognized that
evidence suggesting an impact on minority or female
ownership would be relevant to its public-interest

40
analysis; it simply found that no persuasive evidence on
that point had been identified. “The FCC’s lack of some
data relevant to one of [the public-interest]
considerations should not outweigh its reasonable
predictive judgments, particularly in the absence of any
contrary information, such that its entire policy update
is held up.” Id. at 52a (Scirica, J., concurring in part and
dissenting in part).
3. The court of appeals also faulted the agency
for using disparate data sets in comparing minority
ownership rates before and after a prior round of ownership deregulation. Pet. App. 31a. Noting that the
“NTIA and Form 323” “data sets were created using
entirely different methodologies,” the court stated that
“[a]ttempting to draw a trendline between the NTIA
data and the Form 323 data is plainly an exercise in
comparing apples to oranges.” Ibid. The court asserted, based on that mismatch, that “the FCC’s analysis * * * would receive a failing grade in any introductory statistics class.” Id. at 30a-31a.
Although the court’s skepticism of the probative
value of the available data was appropriate, its critique
of the FCC’s analysis was not. The FCC had recognized
the evidentiary mismatch identified by the court of appeals, acknowledging in the 2016 Order that “combining
older data with more recent data * * * introduces potential variation from differences in the way the data
were collected rather than actual changes in the marketplace.” J.A. 174 n.211; see J.A. 215 n.325; see also
J.A. 215 (noting that “NTIA attributes approximately
half the growth between 1999 and 1999/2000 to improved methodology for identifying minority owned stations”). And the panel did not contest that, despite “solicit[ing] evidence on this issue during the notice-and-

41
comment period, [the Commission] did not receive any
information of higher quality than the NTIA/Form 323
data.” Pet. App. 33a. Nor did the panel identify any
plausible way for the agency to obtain more comprehensive or granular information about the precise effects of
historical rule changes.
In “the absence of a continuous, unified data source,”
the Commission had no choice but to “rely on the available data, and [its] findings [were] consistent with
[those] data.” 2016 Order, J.A. 174 n.211; see J.A. 215
n.325. Particularly given its acknowledgment of the
limitations in the record evidence, this was a permissible choice. See, e.g., Baltimore Gas & Elec. Co. v. Natural Res. Def. Council, Inc., 462 U.S. 87, 100 (1983) (rejecting arbitrary-and-capricious challenge where the
agency neither “ignored [nor] failed to disclose the uncertainties surrounding [a critical] assumption”); Sierra
Club v. Costle, 657 F.2d 298, 334 (D.C. Cir. 1981) (identifying “admission of uncertainties” as a characteristic
of reasoned agency decision-making).
In any event, the court of appeals seriously overestimated the probative force of historical ownership
data. “Even if the FCC could obtain improved data on
these decades-old regulatory changes, that information
offers only modest predictive value for the consequences of the FCC’s current rules regarding modernization.” Pet. App. 51a (Scirica, J., concurring in part
and dissenting in part). The competitive landscape has
changed dramatically since the agency’s relaxation of
its ownership rules in the 1990s, and there is no reason
to believe that different regulatory modifications today
would produce effects similar to those resulting from
prior changes.

42
The court of appeals also suggested that the FCC
should have performed a more sophisticated statistical
analysis of the available data. Pet. App. 31a-32a.
Specifically, the court observed that the FCC’s comparison of the “absolute number of minority-owned stations
at different times” included “no effort to control for
possible confounding variables,” such as “the total number of stations.” Id. at 31a. And it faulted the Commission for failing to “assess the counterfactual scenario” of “how many minority-owned stations there
would have been” “had there been no deregulation” in
the 1990s. Id. at 32a.
That complaint is difficult to take seriously in light
of the court of appeals’ characterization of the relevant
data sets as “apples” and “oranges.” Pet. App. 31a.
Given the imprecision in the raw data, any attempt to
perform a regression analysis would have been futile and
misleading—a point the Commission recognized and
explained. As the 2014 Review observed with respect to
the cross-ownership rules, “[a] rigorous econometric
analysis would require that [the FCC] observe a
sufficient number of markets in which cross-ownership
and/or minority and female ownership levels recently
have shown variation.” J.A. 95 n.595. Because the crossownership restrictions “hav[e] been in place for such a
long period of time,” and “levels of minority and female
ownership” have historically remained “low,” “both
cross-ownership and minority and female ownership
levels show very little variation, making empirical study
of the relationship between these multiple variables
extremely difficult.” Ibid. “In addition, any study
necessarily would be based on a very small dataset for
the same reasons.” Ibid. A regression analysis therefore
could not “extrapolate with any degree of confidence the

43
effect that changing the Commission’s cross-ownership
rules would have on minority and female ownership
levels, and any attempt to do so would be misleading.”
Ibid.
C. The Decision Below Undermines The Proper Functioning
Of Section 202(h) Reviews

The decision below requires a high degree of empirical certainty concerning potential impacts on minority
and female ownership before the Commission can modify any of its ownership rules pursuant to Section
202(h). See Pet. App. 34a (ordering the Commission to
“ascertain on record evidence the likely effect of any
rule changes it proposes * * * on ownership by women
and minorities, whether through new empirical research or an in-depth theoretical analysis,” before
amending or repealing its rules). The court required
that high level of certainty, moreover, with respect to a
factor that was not even the FCC’s affirmative basis for
adopting the deregulatory approach reflected in the Reconsideration Order. See pp. 28-29, supra.
The court of appeals’ analysis is incompatible with
the rolling reviews Congress intended. Section 202(h)
contemplates an iterative process by which the FCC
makes frequent assessments of the public interest, revises its rules accordingly, and then monitors the effects
of the new rules in anticipation of the next quadrennial
review. See Part I.B.2, supra. The decision below substantially undermines that process, both by impeding
the agency’s ability to revise its rules in light of competitive changes in the marketplace, and by preventing the
agency from gathering data regarding the effects of its
rule changes.

44
1. To keep pace with rapid competitive developments, the FCC must have the leeway to make predictive judgments based on incomplete evidence. “[I]t is
virtually impossible for an agency to compile an unchallengeable factual record in support of forward-looking
rules designed to anticipate the future development of
the marketplace.” Prometheus I, 373 F.3d at 439 (Scirica, C.J., dissenting in part, concurring in part). Accordingly, “a forecast of the direction in which future
public interest lies necessarily involves deductions
based on the expert knowledge of the agency.” NCCB,
436 U.S. at 814 (quoting FPC v. Transcontinental Gas
Pipe Line Corp., 365 U.S. 1, 29 (1961)).
The court of appeals’ requirement of a high degree
of empirical certainty with respect to a single publicinterest factor—a factor that is extremely difficult to
measure and forecast—inhibits the Commission’s ability to make the necessary predictive judgments and to
modify its regulations as needed. The panel’s approach
has effectively frozen in place ownership rules that have
indisputably outlived their competitive usefulness. As
the Commission has explained in detail, “technological
innovation and fundamental changes to the media marketplace have eroded many of the assumptions underlying the ownership rules.” Pet. App. 43a (Scirica, J., concurring in part and dissenting in part) (citing, e.g., Reconsideration Order, NAB Pet. App. 67a-68a, 92a-93a,
97a-98a, 116a-117a, 134a-135a, 144a-148a).
Indeed, as early as 2004, the court below recognized
that “reasoned analysis supports the Commission’s determination that the blanket ban on newspaper/broadcast
cross-ownership [is] no longer in the public interest.”
Prometheus I, 373 F.3d at 398; see also id. at 387. That
1975 ban nevertheless remains in effect today, despite two

45
further FCC efforts to repeal it. See Prometheus Radio
Project v. FCC, 652 F.3d 431, 472 (3d Cir. 2011) (Scirica,
J., concurring in part, dissenting in part) (“The decision to
vacate and remand the 2008 newspaper/broadcast crossownership rule * * * preserves an outdated and twiceabandoned ban.”), cert. denied, 567 U.S. 951 (2012); Pet.
App. 34a (majority vacating attempted repeal for third
time). And with respect to the FCC’s relaxation of the
other ownership rules, “[n]o party identifies any reason to
question the FCC’s key competitive findings and judgments.” Pet. App. 48a (Scirica, J., concurring in part and
dissenting in part).
Retention of these outdated rules has inflicted, and
will continue to inflict, competitive harm on broadcast
markets. Most significantly, the ownership rules may
“prevent[ ] local news outlets from achieving efficiencies
by combining resources,” which is critical as “the dominance of traditional news outlets diminishes” due to
competition from cable and online sources. Reconsideration Order, NAB Pet. App. 93a, 101a; see id. at 137a,
147a. The continued existence of the newspaper/broadcast
cross-ownership ban thus “come[s] at significant expense to parties that would” otherwise be able “to engage in profitable combinations.” Prometheus III, 824
F.3d at 52. And because the Orders under review apply
to the television, radio, and newspaper industries nationwide, the resulting competitive harm is potentially
substantial.
2. Periodic rule revisions pursuant to Section 202(h)
not only ensure that the Commission’s regulatory approach can adapt to changing competitive realities, but
also facilitate subsequent quadrennial reviews by enabling the FCC to assess how its rule changes “function

46
in the marketplace.” Pet. App. 48a (Scirica, J., concurring in part and dissenting in part). Where (as here) the
Commission confronts an “issue involving expert opinions and forecasts, which cannot be decisively resolved
by testimony” or data, “a month of experience will be
worth a year of hearings.” American Airlines, Inc. v.
Civil Aeronautics Bd., 359 F.2d 624, 633 (D.C. Cir.) (en
banc), cert. denied, 385 U.S. 843 (1966); see NBC, 319
U.S. at 225 (“Such problems may be examined again at
some future time after the regulations here adopted
have been given a fair trial.”) (citation omitted); see also
2014 Review, J.A. 95 n.595 (“Variation in ownership
structure over time, resulting from additional crossowned entities, could provide additional data points to
study in the future.”).
By “depriv[ing] both the Commission and Congress
[of ] the valuable opportunity to evaluate the new rules
and the effects of deregulation on the media marketplace,” the court below has “[s]hort-circuit[ed] the statutory review process.” Prometheus I, 373 F.3d at 438
(Scirica, J., dissenting in part, concurring in part). Rather than demanding empirical certainty up front, the
court should have deferred to the Commission’s reasonable predictive judgments. That approach would have
allowed the agency to implement its new rules, “monitor
the resulting impact on the media marketplace, and
* * * refine or modify its approach in its next quadrennial review.” Id. at 439.
The court of appeals’ holding thus places the Commission in a Catch-22. The court barred the agency
from revising its rules in the absence of precise data
concerning the effect the revisions would have on minority and female ownership. But it is unclear how the
FCC could now collect useful information concerning

47
the effects of decades-old regulatory changes on minority and female ownership. The agency’s only plausible
option is to evaluate the effects of its proposed rule
changes after it implements them—something the
panel’s decision prevents it from doing. That decision
leaves the FCC with no viable path forward.
D. The Court Of Appeals’ Remedy Was Overbroad

The court of appeals compounded its analytic errors
by issuing a dramatically overbroad remedy. Although
the court limited its substantive analysis to the data and
reasoning that underlay the ownership-rule changes in
the Reconsideration Order, Pet. App. 27a, it vacated
both the Reconsideration and Incubator Orders in full,
as well as the “eligible entity” definition from the 2016
Order, id. at 34a. The court also ordered that “[o]n
remand the Commission must ascertain on record evidence the likely effect of * * * whatever ‘eligible entity’
definition it adopts on ownership by women and
minorities.” Ibid. The court further directed that,
“[i]f [the FCC] finds that its proposed definition
for eligible entities will not meaningfully advance
ownership diversity, it must explain why it could not
adopt an alternate definition that would do so.” Ibid.
Those aspects of the court’s remedy violate basic
administrative-law principles, see pp. 21-23, 33-35,
supra, and they do not even follow logically from the
court’s (flawed) analysis of the Reconsideration Order’s
ownership-rule changes.7

Vacatur was plainly unjustified as to unrelated portions of the
Orders that the court failed to address at all. See, e.g., Reconsideration Order, NAB Pet. App. 164a-165a, 178a (pertaining to embedded local radio markets and joint services attribution).
7

48
1. In the 2016 Order, the FCC specifically designed
its “eligible entity” definition to promote small-business
participation in broadcast markets, not minority and female ownership of broadcast stations. See 2016 Order,
J.A. 378, 384-387. The decision to pursue that goal represents a valid exercise of the Commission’s authority
to regulate in the public interest, and the agency explained at length why an explicitly race- or genderconscious standard likely would not satisfy constitutional scrutiny. J.A. 397-410, 414-429.
The court of appeals failed to address the Commission’s analysis underlying its chosen definition. The relevant statutes do not require every FCC rulemaking to
promote minority and female ownership. In vacating
the Reconsideration Order’s ownership-rule revisions,
the court found that the FCC had not adequately ruled
out the possibility that those revisions would reduce minority and female ownership levels. With respect to the
FCC’s “eligible entity” definition, however, “[n]othing
in the present record suggests” that the FCC’s definition would “harm ownership diversity.” Pet. App. 54a
(Scirica, J., concurring in part and dissenting in part)
(emphasis added). Thus, even if it were sound, the court
of appeals’ rationale for vacating the ownership-rule revisions in the Reconsideration Order would not cast
doubt on the eligible-entity definition.
2. In adopting the eligibility criteria for the incubator program, the agency similarly sought to promote
ownership opportunities for new market entrants. See
Incubator Order, J.A. 578-579. The court of appeals did
not suggest that the agency’s stated goal was invalid or
that the eligibility criteria were inadequately tailored to
advance that goal. And while the Commission concluded that a race- or gender-conscious standard would

49
be unlikely to survive constitutional scrutiny, J.A. 605
n.55, it cited data suggesting that a standard related to
the one it proposed to adopt had previously increased
successful minority and female participation in auctions
for broadcast construction permits, J.A. 598-603.
The court of appeals failed to engage with any of this
reasoning. Nor did the court explain how its rationale
for overturning the Reconsideration Order’s ownershiprule revisions—i.e., the agency’s purported failure adequately to consider the possibility that the revisions
would reduce minority or female ownership of broadcast stations—could apply to the incubator program.
This aspect of the court of appeals’ remedy therefore
likewise could not be sustained, even if the court’s vacatur of the ownership-rule revisions was proper.
CONCLUSION

The judgment of the court of appeals should be reversed.
Respectfully submitted.
THOMAS M. JOHNSON, JR.
General Counsel
ASHLEY S. BOIZELLE
Deputy General Counsel
JACOB M. LEWIS
Associate General Counsel
JAMES M. CARR
WILLIAM SCHER
Attorneys
Federal Communications
Commission

NOVEMBER 2020

JEFFREY B. WALL
Acting Solicitor General
MAKAN DELRAHIM
Assistant Attorney General
MALCOLM L. STEWART
Deputy Solicitor General
MICHAEL F. MURRAY
Deputy Assistant Attorney
General
AUSTIN L. RAYNOR
Assistant to the Solicitor
General

APPENDIX

1.

5 U.S.C. 706 provides:

Scope of review

To the extent necessary to decision and when presented, the reviewing court shall decide all relevant
questions of law, interpret constitutional and statutory
provisions, and determine the meaning or applicability
of the terms of an agency action. The reviewing court
shall—
(1) compel agency action unlawfully withheld or
unreasonably delayed; and
(2) hold unlawful and set aside agency action,
findings, and conclusions found to be—
(A) arbitrary, capricious, an abuse of discretion, or otherwise not in accordance with law;
(B) contrary to constitutional right, power,
privilege, or immunity;
(C) in excess of statutory jurisdiction, authority, or limitations, or short of statutory right;
(D) without observance of procedure required
by law;
(E) unsupported by substantial evidence in a
case subject to sections 556 and 557 of this title or
otherwise reviewed on the record of an agency
hearing provided by statute; or
(F) unwarranted by the facts to the extent that
the facts are subject to trial de novo by the reviewing court.
(1a)

2a
In making the foregoing determinations, the court shall
review the whole record or those parts of it cited by a
party, and due account shall be taken of the rule of prejudicial error.
2.

47 U.S.C. 161 provides:

Regulatory reform
(a)

Biennial review of regulations

In every even-numbered year (beginning with 1998),
the Commission—
(1) shall review all regulations issued under this
chapter in effect at the time of the review that apply
to the operations or activities of any provider of telecommunications service; and
(2) shall determine whether any such regulation
is no longer necessary in the public interest as the
result of meaningful economic competition between
providers of such service.
(b)

Effect of determination

The Commission shall repeal or modify any regulation it determines to be no longer necessary in the public
interest.

3a
3.

47 U.S.C. 303 provides in pertinent part:

Powers and duties of Commission

Except as otherwise provided in this chapter, the
Commission from time to time, as public convenience,
interest, or necessity requires, shall—
*

*

*

*

*

(f ) Make such regulations not inconsistent with law
as it may deem necessary to prevent interference between stations and to carry out the provisions of this
chapter: Provided, however, That changes in the frequencies, authorized power, or in the times of operation
of any station, shall not be made without the consent of
the station licensee unless the Commission shall determine that such changes will promote public convenience
or interest or will serve public necessity, or the provisions of this chapter will be more fully complied with;
*

*

*

*

*

BROADCAST OWNERSHIP
Pub. L. 104-104, title II, § 202, Feb. 8, 1996, 110 Stat.
110, as amended by Pub. L. 108-199, div. B, title VI,
§ 629, Jan. 23, 2004, 118 Stat. 99, provided that:
“(a) NATIONAL RADIO STATION OWNERSHIP R ULE
CHANGES REQUIRED.—The Commission shall modify
section 73.3555 of its regulations (47 C.F.R. 73.3555) by
eliminating any provisions limiting the number of AM or
FM broadcast stations which may be owned or controlled by one entity nationally.
“(b) LOCAL RADIO DIVERSITY.—

4a
“(1) APPLICABLE CAPS.—The Commission shall
revise section 73.3555(a) of its regulations (47 C.F.R.
73.3555) to provide that—
“(A) in a radio market with 45 or more commercial radio stations, a party may own, operate,
or control up to 8 commercial radio stations, not
more than 5 of which are in the same service (AM
or FM);
“(B) in a radio market with between 30 and 44
(inclusive) commercial radio stations, a party may
own, operate, or control up to 7 commercial radio
stations, not more than 4 of which are in the same
service (AM or FM);
“(C) in a radio market with between 15 and 29
(inclusive) commercial radio stations, a party may
own, operate, or control up to 6 commercial radio
stations, not more than 4 of which are in the same
service (AM or FM); and
“(D) in a radio market with 14 or fewer commercial radio stations, a party may own, operate,
or control up to 5 commercial radio stations, not
more than 3 of which are in the same service (AM
or FM), except that a party may not own, operate,
or control more than 50 percent of the stations in
such market.
“(2) EXCEPTION.—Notwithstanding any limitation authorized by this subsection, the Commission
may permit a person or entity to own, operate, or control, or have a cognizable interest in, radio broadcast
stations if the Commission determines that such ownership, operation, control, or interest will result in an

5a
increase in the number of radio broadcast stations in
operation.
“(c)

TELEVISION OWNERSHIP LIMITATIONS.—

“(1) NATIONAL OWNERSHIP LIMITATIONS.—The
Commission shall modify its rules for multiple ownership set forth in section 73.3555 of its regulations
(47 C.F.R. 73.3555)—
“(A) by eliminating the restrictions on the
number of television stations that a person or entity may directly or indirectly own, operate, or
control, or have a cognizable interest in, nationwide; and
“(B) by increasing the national audience
reach limitation for television stations to 39 percent.
“(2) LOCAL OWNERSHIP LIMITATIONS.—The
Commission shall conduct a rulemaking proceeding
to determine whether to retain, modify, or eliminate
its limitations on the number of television stations
that a person or entity may own, operate, or control,
or have a cognizable interest in, within the same television market.
“(3) DIVESTITURE.—A person or entity that exceeds the 39 percent national audience reach limitation for television stations in paragraph (1)(B)
through grant, transfer, or assignment of an additional license for a commercial television broadcast
station shall have not more than 2 years after exceeding such limitation to come into compliance with such
limitation. This divestiture requirement shall not

6a
apply to persons or entities that exceed the 39 percent national audience reach limitation through population growth.
“(4) FORBEARANCE.—Section 10 of the Communications Act of 1934 (47 U.S.C. 160) shall not apply
to any person or entity that exceeds the 39 percent
national audience reach limitation for television stations in paragraph (1)(B);[.]
“(d) RELAXATION OF ONE-TO -A-MARKET.—With
respect to its enforcement of its one-to-a-market ownership rules under section 73.3555 of its regulations, the
Commission shall extend its waiver policy to any of the
top 50 markets, consistent with the public interest, convenience, and necessity.
“(e) DUAL NETWORK CHANGES.—The Commission
shall revise section 73.658(g) of its regulations (47 C.F.R.
658(g)) to permit a television broadcast station to affiliate with a person or entity that maintains 2 or more networks of television broadcast stations unless such dual
or multiple networks are composed of—
“(1) two or more persons or entities that, on the
date of enactment of the Telecommunications Act of
1996 [Feb. 8, 1996], are ‘networks’ as defined in
section 73.3613(a)(1) of the Commission’s regulations
(47 C.F.R. 73.3613(a)(1)); or
“(2) any network described in paragraph (1) and
an English language program distribution service
that, on such date, provides 4 or more hours of programming per week on a national basis pursuant to
network affiliation arrangements with local television broadcast stations in markets reaching more

7a
than 75 percent of television homes (as measured by
a national ratings service).
“(f )

CABLE CROSS OWNERSHIP.—

“(1) ELIMINATION OF RESTRICTIONS.—The
Commission shall revise section 76.501 of its regulations (47 C.F.R. 76.501) to permit a person or entity
to own or control a network of broadcast stations and
a cable system.
“(2) SAFEGUARDS AGAINST DISCRIMINATION.—
The Commission shall revise such regulations if necessary to ensure carriage, channel positioning, and
nondiscriminatory treatment of nonaffiliated broadcast stations by a cable system described in paragraph (1).
“(g) LOCAL MARKETING AGREEMENTS.—Nothing
in this section shall be construed to prohibit the origination continuation, or renewal of any television local marketing agreement that is in compliance with the regulations of the Commission.
“(h) FURTHER COMMISSION REVIEW.—The Commission shall review its rules adopted pursuant to this
section and all of its ownership rules quadrennially as
part of its regulatory reform review under section 11 of
the Communications Act of 1934 [47 U.S.C. 161] and
shall determine whether any of such rules are necessary
in the public interest as the result of competition. The
Commission shall repeal or modify any regulation it determines to be no longer in the public interest. This
subsection does not apply to any rules relating to the
39 percent national audience reach limitation in subsection (c)(1)(B).

8a
“(i) ELIMINATION OF STATUTORY RESTRICTION.—
[Amended section 533(a) of this title.]”
*
4.

*

*

*

*

47 U.S.C. 309(a) provides:

Application for license
(a)

Considerations in granting application

Subject to the provisions of this section, the Commission shall determine, in the case of each application filed
with it to which section 308 of this title applies, whether
the public interest, convenience, and necessity will be
served by the granting of such application, and, if the
Commission, upon examination of such application and
upon consideration of such other matters as the Commission may officially notice, shall find that public interest, convenience, and necessity would be served by the
granting thereof, it shall grant such application.

